                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAC
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A05050023
                                                                              11          Page 1 of 1



                  We investigated an allegation that an NSF employee (subject)' attempted to influence a
         subordinate2to award money to an outside organization3with which the subject had a conflict of
         interest. Specifically, the subject serves as an office5 for the outside organization. After
         interviewing the subject and another NSF employee5who was believed to have knowledge of the
         issue, it was determined that preponderant evidence did not substantiate the allegation.

                   Accordingly, this matter is closed.




         ' Redacted
            Redacted
            Redacted
            Redacted
            Redacted


1
NSF OIG Form 2 (1 1/02)
